INSPECTOR GENERAL’S SEMIANNUAL REPORT TO CONGRESS
         Appalachian Regional Commission
         April 1, 2012–September 30, 2012
 

December 18, 2012

MEMORANDUM FOR                  THE FEDERAL CO-CHAIR and STATES’ CO-CHAIR

SUBJECT:                        Semiannual Report to Congress



In accordance with the requirements of the Inspector General Act Amendments of 1988, Public Law
100-504, the Inspector General Reform Act of 2008, Public Law 110-409, and the Dodd-Frank Wall
Street Reform and Consumer Protection Act, Public Law 111-203. I am pleased to submit the Office of
Inspector General’s Semiannual Report to Congress.

This Semiannual Report to Congress summarizes the activities of our office for the 6-month period
ending September 30, 2012. During this fiscal period, we issued seventeen reports, followed-up on open
recommendations and monitored contractor performance.

Also during this period, the Inspector General and staff continued to serve as representatives on the
Council of the Inspectors General on Integrity & Efficiency (CIGIE), the Federal Audit Executive
Committee (FAEC), and the various Intergovernmental Audit Forums covering our jurisdictional region.
The Inspector General continues to chair a smaller OIG group in order to address issues directly
impacting these offices and is an active member of the CIGIE Audit Committee.

The Inspector General Act of 1978, as amended by the Inspector General Act Amendments of 1988,
provides that this report be forward to appropriate Congressional committees within 30 days and that
you provide whatever additional comments you consider appropriate.

I appreciate the Commission’s cooperation with the Office of Inspector General in the conduct of our
operations.




Inspector General

Enclosure
                                      TABLE OF CONTENTS



                                                                                                     Page

Executive Summary                                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

Purpose and Requirements of the OIG Semiannual Report                                      . . . . . . . . . . . iii

  I.    Introduction                               ................................1

 II     Background                               .................................1

Appalachian Regional Commission                      ...............................1

Office of Inspector General                       .................................5

 III.   OIG Activity                               ................................6

Audits, Inspections, Evaluations & Reviews            ...............................6

Investigations                                     .................................8

Other                                              .................................8

  IV. Reporting Fraud, Waste, and Abuse            .................................9

 V.     Legislative & Regulatory Review                ...............................9

 VI. Dodd-Frank Legislation                            ………………………………………...9



Appendices

        A.       Schedule of Reports Issued, April 1, 2012 thru September 30, 2012

        B.       Schedule of Reports with Questioned or Unsupported Costs

        C.       Definition of Terms Used
                                       EXECUTIVE SUMMARY


ARC grant operations represent the most significant part of ARC’s programs. For this reporting period
our activities included the issuance of seventeen reports, follow-up on significant recommendations in
prior reports, addressing two hotline complaints, and monitoring contractor performance of grant
reviews and Financial Statement audit. This included fifteen grant audits issued during the reporting
period and two reports dealing with grant management.

Grant management reviews emphasized ARC follow-up on older open Child Agency grants and
applicable policies and procedures. Continued ARC actions, including follow-up on basic agency grants
identified in prior reports as needing follow-up resulted in approximately six million dollars in actual or
intended recoveries during the past year that can be put to better use. Also, over 670 grants were closed
between July 1, 2011 and September 30, 2012. Actions were also initiated on 122 of 161 grants
identified in prior OIG reports that needed follow-up due to limited activity.

Our follow-up review of older open grants administered by Child Agencies identified the need for
continued emphasis on timely follow-up on grants with limited activity. Seventy six grants (open for
over 21 months) were identified without any disbursement activity since grant approval with the longest
being 115 months. ARC funds of $29,831,574 were approved for these grants, including $8,435,200 for
grants identified in our prior report of July 2011.

Our review of ARC administered grants identified substantial progress with respect to inactive older
grants. The ARC grant management system identified only 12 grants totaling $843,345 for which no
disbursements were noted during the 21 months since approval.

Other issues relating to timely follow-up of open grants status included identifying grants with expired
end dates, closing of grants with zero balances, increased use of controls available to initiate action on
inactive grants, and strengthened Memorandum of Understandings with Child Agencies that better
assure notification to ARC of grants and projects with startup problems.

Individual grant reviews identified a lack of support for required matching funds, a budget request that
exceeded grantee needs and limited questioned costs. The FY 2012 financial statement audit is on
schedule for issuance in November.

Decisions and/or OMB guidance with respect to implementing certain sections of Dodd-Frank
Legislation have not been issued. The primary issues are the designation of full Commissions/ Boards
as Agency Heads at designated Federal Entities (DFEs), such as ARC, who’s Commission, consists of
primarily Non-Federal Officials and the status of Federal OIG staff, including the IG.

The IG continues to chair a group of smaller OIGs to address issues that have particular impact on these
offices. The IG is also an active member of the Council of Inspectors General Audit Committee.
                                                   ii
                         PURPOSE AND REQUIREMENTS OF THE
                  OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT

The Inspector General Act of 1978 requires the IG to keep the Federal Co-Chair and Congress fully and
currently informed about problems and deficiencies in the Commission's operations and the necessity for
corrective action. In addition, the Act specifies that semiannual reports will be provided to the Federal
Co-Chair by April 30 and October 31 and to Congress 30 days later.

The Federal Co-Chair may transmit comments to Congress along with the report but may not change
any part of the report. The specific requirements prescribed in the Act, as amended (Public Law 100-
504), are listed below.
                                    Reporting Requirements


Section 4(a)(2)    Review of legislation and regulations                                                    Page 9

Section 5(a)(1)    Problems, abuses, and deficiencies                                                       Pages 6-7

Section 5(a)(2)    Recommendations with respect to problems, abuses, and                                    Pages 6-7
                   deficiencies

Section 5(a)(3)    Prior significant recommendations not yet implemented                                    **

Section 5(a)(4)    Matters referred to prosecutive authorities                                              *

Section 5(a)(5)    Summary of instances where information was refused                                       *
and    6(b)(2)

Section 5(a)(6)    Listing of audit reports showing number of reports and dollar                            App A
                   value of questioned costs

Section 5(a)(7)    Summary of each particularly significant report                                          **

Section 5(a)(8)    Statistical table showing number of reports and dollar value of                          App B
                   questioned costs

                                                                                                            App C

*      None.
**     See references to Sections 5(a)(1) and 5(a)(2) for discussion of significant reports (including recommendations).
                                                               iii 
I.        INTRODUCTION

The Inspector General Act Amendments of 1988, (Pub. L. No. 100-504) provides for the establishment
of an Office of Inspector General (OIG) at Designated Federal Entities (DFEs), including the ARC. The
ARC OIG became operational on October 1, 1989, with the appointment of an IG and provision of
budgetary authority for contracted audit and/or investigation activities.


II.       BACKGROUND

          A.     APPALACHIAN REGIONAL COMMISSION

The Appalachian Regional Development Act of 1965, (Pub.L. No. 89-4) established the Appalachian
Regional Commission. The Act authorizes a Federal/State partnership designed to promote long-term
economic development on a coordinated regional basis in the 13 Appalachian States. The Commission
represents a unique experiment in partnership among the Federal, State, and local levels of Government
and between the public and private sectors. It is composed of the Governors of the 13 Appalachian
States and a Federal representative who is appointed by the President. The Federal representative serves
as the Federal Co-Chair with the Governors electing one of their numbers to serve as the States' Co-
Chair.


      -   Through joint planning and development of regional priorities, ARC funds are used to assist and
          encourage other public and private resources to address Appalachia's unique needs. Program
          direction and policy are established by the Commission (ARC Code) with the vote of a majority
          of the State members and the affirmative vote of the Federal Co-Chair. Emphasis has been
          placed on highways, infrastructure development, business enterprise, energy, and human
          resources programs.

     -    To ensure that funds are used effectively and efficiently, and to strengthen local participation,
          ARC works with the Appalachian states to support a network of multicounty planning and
          development organizations, or local development districts (LDDs), throughout the Region. The
          73 LDDs cover all 420 counties in Appalachia. The LDDs’ most important role is to identify
          priority needs of local communities.

      -   Administratively, the Commission has a staff of 53 persons that includes 47 Commission
          employees responsible for program operations, and the office of the Federal Co-Chair that
          includes the three person OIG staff. The Commissions’ staff administrative expenses, including
          salaries, are jointly funded by Federal and State funds.

      -   The Commission's appropriation for FY 2012 was $68.3 million. For FY 2013 ARC is operating
          under a continuing resolution through March 27, 2013 with a funding level of $68,681,000. In
          addition, for FY 2012 ARC received funding of $438,776,680 under the Highway Trust Fund,
          under Section 1101 of the Safe, Accountable, Flexible, and Efficient Transportation
                                                     1
Equity Act: A Legacy for Users (SAFETEA-LU). This funding provides for construction of the
Appalachian Development Highway System which is under ARC’s programmatic jurisdiction; provided
for under Section 201 of the 1965 Appalachian Regional Development Act

    -   ARC’s non-ADHS funds are distributed to state and local entities in accordance with an
        allocation formula intended to provide fair and reasonable distribution of available resources.
        ARC staff has responsibilities for program development, policy analysis and review, grant
        development, technical assistance to States, and management and monitoring. 
 
    -   In order to avail itself of federal agency expertise and administrative capability in certain areas,
        ARC often relies on other departments and agencies for program administration, especially with
        respect to highways and infrastructure projects. For example, the Appalachian Regional
        Development Act authorizes the Secretary of Transportation to administer the Commission's
        highway programs, with the Commission retaining responsibility for priorities, highway
        locations, and fund allocations. ARC relies on Child Agencies including the Departments of
        Agriculture, Commerce and Economic Development Administration and the Tennessee Valley
        Authority to administer and monitor construction related grants.




                                                2
 
B.     OFFICE OF INSPECTOR GENERAL

The ARC OIG is an independent Federal audit and investigative unit that reports directly to the Agency
Head.


Role and Authority

The Inspector General Act of 1978, (Pub.L. No. 95-452), as amended in 1988, states that the IG is
responsible for (1) audits and investigations; (2) review of legislation; and (3) recommendation of
policies for the purpose of promoting economy and efficiency in the administration of, or preventing and
detecting fraud and abuse in, the program and operations of the establishment. In this regard, the IG is
responsible for keeping the Agency Head and Congress fully informed about the problems and
deficiencies in ARC programs and operations and the need for corrective action. The IG has authority to
inquire into all ARC programs and activities that are federally funded. The inquiries may be in the form
of audits, surveys, investigations, inspections, evaluations, personnel security checks, or other
appropriate methods. The two primary purposes of these inquiries are (1) to assist all levels of ARC
management by identifying and reporting problem areas, weaknesses, or deficiencies in procedures,
policies, program implementation, and employee conduct and (2) to recommend appropriate corrective
actions.


Relationship to Other Principal ARC Offices

The States’ and Federal Co-Chairs, acting together as the Commission, establish policies for ARC's
programs and its administration. These policies are provided under the ARC Code and implemented by
the Commission staff, which is responsible for monitoring project performance and providing technical
assistance as needed. The Federal Co-Chair, as the Federal fiscal officer, is responsible for the proper
use and protection of Federal funds, for ensuring compliance with applicable Federal laws and
regulations, and for taking appropriate action on conditions needing improvement, including those
reported by the OIG. The operation of the OIG neither replaces established lines of operating authority
nor eliminates the need for the Commission offices to take reasonable measures to protect and enhance
the integrity and effectiveness of their operations. All Commission offices are responsible for
monitoring and evaluating the programs entrusted to them and reporting information or incidences
needing further audit and/or investigation to the IG.


Funding and Staffing

The OIG funding level for FY 2012 was $658,000. The FY 2013 budget request was for $642,000 and
is subject to continuing resolutions. Staffing consists of the Inspector General, an Assistant Inspector
General for Audit, and a confidential assistant. Grant review activities continue to emphasize use of
contracted services (e.g., independent public accounting firms or other OIG offices) supplemented by
programmatic and performance reviews directed by OIG staff.




                                               5
In order to comply with Pub.L. No. 110-409, the Inspector General Reform Act of 2008, the OIG
funding for FY 2013 includes reimbursement of other IGs for counsel, audit and investigative services
via Memorandums of Understanding. Currently, we use the Department of Commerce OIG legal
counsel to supplement our activities. We also use other OIG offices to provide investigative services.
This approach is deemed the most appropriate to date in view of the nature of ARC operations and
limited resources.

In line with legislation enacted to form more regional commissions, the IG supports consolidating small
regional commission OIG offices into one OIG organization to better assure sufficient OIG resources to
operate more efficiently and effectively.


III. OIG ACTIVITY

A. Audits, Inspections, Evaluations and Reviews

During the reporting period seventeen reports were issued, including 15 grant audit reports and two
grant management reports.

The grant management reviews focused on follow-up actions to determine the status of older grants with
limited activity and applicable grant management policies, procedures and controls. These reviews were
consistent with GAO and OMB emphasis and a management challenge previously noted by ARC-OIG.

A follow-up review of older grants approved and partially or fully funded by ARC, but administered by
other agencies (Child Agencies) with construction project expertise as required by legislation, disclosed
continuing progress with respect to timely follow-up and initiation of actions, including cancellations
and de-obligations.

For example, over 670 grants were reported closed between July 1, 2011 and September 30, 2012, and
approximately $6 million in actual or potential recoveries pertaining to grants included in prior reports
was reported. Also, actions were initiated on 122 of 161 grants noted in prior reports as subject to
follow-up.

Overall, we identified 88 open grants with ARC funding approximating $30.7 million for which there
were no disbursements in the 21 months subsequent to ARC approval, with the period since approval
ranging from 21 to 115 months.

This included 76 Child Agency grants for which no disbursements were reported for grants approved
prior to 2011. Funds approved for these grants approximated $29.8 million and included 33 grants with
ARC funds approximating $13 million for which the period of no disbursements since approval ranged
from 35-113 months. In 21 cases grants with 100% balances totaling approximately $8.4 were included
in a prior report issued in July 2011.

Overall, approximately one percent of ARC grants that were approved three or more years prior to
September 30, 2012 have had no disbursements, although the Child Agency grants have a higher
percentage of these grants.

We recognize that Child Agencies administer construction projects and that various factors contribute to
delayed startup of the related projects. However, periodic follow-up and documented decisions with
respect to older open projects and grants for which no disbursements have been made is considered
                                                    6
appropriate. ARC is continuing actions to address these grants, including emphasizing controls to assure
timely follow-up, project status and potential de-obligations for use on other needed Appalachia
projects.

With respect to ARC administered grants we identified 12 open grants with funding of $843,345 for
which no disbursements were reported within 21 months of approval. This included 6 of 21 grants in
our prior report with ARC funds of $252,785 that remained open without any further disbursements.
Also, 13 of 21 grants noted in the prior report as having disbursements, but no disbursements for at least
21 months, had no further disbursements.

Other grant management issues and recommendations included (a) continued emphasis on follow-up on
older open grants, (b) addressing grants with expired end dates, (c) closing older grants with zero
balances, (d) increasing emphasis on ARC policy that provides that the Commission may revoke or
revise its approval of any project if work intended to be assisted is not underway in 18 months and (e)
review of Memorandums of Understanding (MOU) with Child Agencies to include reporting of grants
where project status are substantially delayed and addition of controls to facilitate identification of
dormant grant accounts.

Grant reviews highlighted the need for grantee documentation of required matching funds which
resulted in lack of documentation for approximately $800,000 in matching funds. Other
recommendations include revised budget actions to preclude requests for funds that will not be used,
documentation of the status of performance measures, and approximately $15,000 in question costs, and
timely grantee progress reports.

During the reporting period, contract monitoring with respect to grant and financial statement audits was
performed as required.


ARC Financial Statement Audit

The financial statement audit for FY 2012 is progressing on schedule. The prior four reports have been
issued with a clean audit opinion since ARC adopted federal financial reporting rules in 2007.


Peer Review

Offices of the Inspectors General (OIGs) are required to perform (and undergo) reviews of other OIG
offices every three years to ensure policies and/or procedural systems are in place that provide
reasonable assurance of compliance with government auditing standards (GAS). The next audit peer
review of ARC OIG is scheduled for FY 2013.

The current audit peer review process, as legislatively mandated, assesses compliance with auditing
standards but does not address issues impacting the efficiency and effectiveness of audit operations
which comprises the largest segment of OIG offices.

The IG continues to recommend to the Council of Inspector General and Legislative Staff that OIG peer
reviews be revised to incorporate assessments of key OIG operational elements such as: planning; timely
reporting; staff development, including training, utilization and supervision; audit follow-up and
inclusion of actual results in Semi-Annual and Annual OIG reports based on implementation of
recommendations 
                                                    7
B. INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the IG may receive and
investigate complaints or information concerning the possible existence of an activity constituting a
violation of law, rules, or regulations; mismanagement; gross waste of funds; or abuse of authority. The
OIG does not employ criminal investigators. When the need has arisen, the matter has been referred to
the Federal Bureau of Investigation or assistance was contracted with another Federal OIG. Also, the
results of investigations may be referred to the appropriate Federal, State, or local prospective authorities
for action.


C. OTHER

Smaller OIG Groups

Smaller OIG offices have some significantly different operational concerns than larger OIG offices in
trying to maintain effective and efficient oversight of agency programs. One challenge involves the
significant human and capital resources being allocated to the ever growing number of mandated
reviews.

The IG is the current coordinator/chair of this group that meets periodically to discuss such issues and
recommends actions/best practices to facilitate smaller OIG operations.


Requests for Information

Each year we receive and comply with requests for information from various governmental entities
compiling statistics on OIG offices or their auditee agencies. CIGIE requests information for its annual
OIG profile update and compilation of OIG statistics. The yearly compilation summarizes the results of
audit and inspection activities for of all federal OIG offices.

Information provided concerns the dollar value of management decisions related to questioned costs and
funds put to better use and OIG recommendations related to questioned costs. The House Committee on
Oversight and Government Reform requests information concerning the number and type or status of
our recommendations. We also comply with information requests from other government regulatory
bodies.

Appalachian Development Highway System (ADHS) Audits

Since Fiscal Year 1999, ADHS has been funded by the Highway Trust Fund, which is administered in
part by the U.S. Department of Transportation (DOT). ARC retains certain programmatic
responsibilities, but the funding source is the Highway Trust Fund. New legislation the ADHS will be
part of a larger Surface Transportation Program grant to Appalachian states, with the states using the
funding at their own direction.




                                                     8
Implementation of OIG Reform Act

The OIG has implemented all of the requirements of Pub.L. No. 110-409 the Inspector General Reform
Act of 2008. A Memorandum of Agreement for Counsel Services is in place with the Department of
Commerce OIG.

Going Green

ARC management has implemented green measures within the organization's internal operations.
Examples include a document scanning system that has been linked to ARC’s e-mail system and an
expansion of ARC net to include operational elements. ARC continues to encourage state partners to
move to a paperless application process. Reduction in paper utilization can reduce cost, improve the
timeliness of management decisions through better document storage and retrieval, and helps to reduce
demands on our earth's ecological systems. Our office, in alignment with management's initiative, is
committed to “going green” and we continue to work toward that end.

IV.    REPORTING FRAUD, WASTE, AND ABUSE

A region wide toll-free hotline is maintained to enable direct and confidential contact with the ARC
OIG, in line with governmental and longstanding OIG initiatives as identified in the IG Act of 1978; to
afford opportunities for identification of areas subject to fraud, waste, or abuse. Also, in accordance
with the Inspector General Reform Act of 2008, the ARC OIG implemented another communication
channel allowing anonymous reporting of fraud, waste or abuse via a link on our website’s home page.
The web link is, http://ig.arc.gov/.

V.     LEGISLATIVE AND REGULATORY REVIEW

The OIG continues to review and provide comment on legislation germane to ARC, OIG and the OIG
community. Our comments are provided, as appropriate to agency officials, and/or to the CIGIE for
incorporation with comments from all other OIGs.


VI.    DODD-FRANK LEGLISATION – Reporting to Full Commission

The Dodd-Frank Wall Street Reform and Consumer Protection Act (Pub. L. No.111-203) amended the
Inspector General Act changing the entity head of ARC from the Federal Co-Chair to the
Commission. The Office of Management & Budget (OMB) has not yet provided guidance on these
changes through the required notice and publication of the List of Designated Federal Entities (DFEs)
which are to be published annually under the IG Act. This Act provides that the Inspector General report
to the full Commission that includes the Federal Co-Chair and 13 Appalachian Governors.

We believe ARC and other economic development Commissions are among the few DFEs that have a
majority of non-Presidentially (or non-federal) appointed Commission members. Although the Dodd-
Frank legislation provides tenure protection to DFE IG’s, a question remains as to whether some of the
provisions were intended to apply to Commission’s composed primarily of non-Federal, non-
Presidentially appointed members. In addition to surfacing the issue of non-Federal appointees authority
to employ IG’s, whose primary responsibility is to oversight the use of Federal funds, the related issue
of the federal versus the non-federal status of the OIG Office, needs Congressional or OMB resolution.

                                                   9
We have recommended that DFE’s having a majority of non-Presidential appointees as Commission or
Board members be exempt from the OIG provisions in the Dodd-Frank Act, or if the Agency Head
remains the full Commission that the OIG Office, including the IG and current Federal OIG Staff,
remain Federal.

Pending additional OMB guidance or direction on Dodd-Frank issues that impact the ARC OIG the
Commission considers the legislated requirement for the entire Commission to be the Agency Head as
applicable. Decisions with respect to the Federal/non-Federal status of the OIG have been delayed until
the final effect of the Dodd-Frank legislation has been settled.




.




                                                  10
                                                                                              APPENDIX A



             SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS
                       ISSUED APRIL 1, 2012 TO SEPTEMBER 30, 2012




Report No.                    Report Title/Description     Program Dollars or   Questioned/      Funds to Better
                                                            Contract/Grant      Unsupported         Use***
                                                               Amount*            Costs**


                                                              $500,000
 12-11       Norton VA Sewer Rehabitation



 12-12       Hale County AL Electronic Records System        $218,664



 12-13                                                        $400,000
             AL Shakespeare Festival

 12-14                                                        $300,000
             Appalachian State University


 12-15       North Georgia College & State University         $886,000          $770,000
             Appalachian Higher Education

 12-16                                                       $1,000,000
             SC Technology and Aviation Center

 12-17                                                        $250,000
             Goodwill Three Month Training

 12-18                                                        $308,000          $40,000
             Southeast Education Inc.

 12-19                                                       $1,058,000         $12,000
             Brushy Fork KY Institute

 12-20                                                        $500,000
             KY Rural Literacy Save The Children
             Marshall University Research Corp. Diabetes
 12-21       Control                                          $238,000



                                                              $302,000           $9,000
 12-22       Ohio Technical Assistance
                                                                      $700,000
    12-23              West Virginia Technical Assistance

                                                                      $880,000
    12-24              PA Energy Project

                                                                      $450,000
    12-25              Appalachian Training Investment Partnership

                                                                     $29,000,000                $1,000,000
    12-26              Older Child Agency Administered

                                                                     $1,400,000                  $80,000
    12-27              Older ARC Administered Grants

    Total                                                            $38,390,6641   $831,0002   $1,080,0003




                                                            
1
  Includes $7,990,664 applicable to 15 grant reviews and $30,400,000 applicable to
older grants recommended for follow-up to determine grant status and potential for
closing and recoveries and use of funds for other needed projects in Appalachia.
2
  Involves primarily unsupported matching funds.
3
  Additional grants and values included in prior reports for which recovery actions
were initiated or completed.
                                                                                 APPENDIX B

                   SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS
                              OF QUESTIONED OR UNSUPPORTED COSTS

                                           No. of            Questioned     Unsupported
                                           Reports             Costs        Costs


A.       For which no management                  0          $0                 $0
decision was made by the
commencement of the reporting period



B.        Which were issued during the           1           $ 21,000           $ 810,000 1
reporting period



           Subtotals (A + B)                     1           $ 21,000           $ 810,000 1


C.       For which a management
decision was made during the reporting
period



   (i)     dollar value of disallowed            1           $ 9,000           $ 0
   costs




   (ii) dollar value of costs not                 1          $ 12,000          $ 0
   disallowed



D.        For which no management                2           $0           $ 810,000   1
decision has been made by the end of
the reporting period



E.      Reports for which no                         0       $0                $ 0
management decision was made within
6 months of issuance




    1.     Awaiting necessary documentation from grantees.
                                                                                          APPENDIX C


                                  DEFINITIONS OF TERMS USED



The following definitions apply to terms used in reporting audit statistics:

Questioned Cost                       A cost which the Office of Inspector General (OIG) questioned
                                      because of an alleged violation of a provision of a law, regulation,
                                      contract, or other agreement or document governing the
                                      expenditure of funds; such cost is not supported by adequate
                                      documentation; or the expenditure of funds for the intended
                                      purpose is unnecessary or unreasonable.

Unsupported Cost                      A cost which the OIG questioned because the cost was not
                                      supported by adequate documentation at the time of the audit.

Disallowed Cost                       A questioned cost that management, in a management decision,
                                      has sustained or agreed should not be charged to the Commission.

Funds Be Put To Better Use            A recommendation made by the OIG that funds could be used
                                      more efficiently if management took actions to implement and
                                      complete the recommendation.

Management Decision                   Management's evaluation of the findings and recommendations
                                      included in the audit report and the issuance of a final decision by
                                      management concerning its response to such findings and
                                      recommendations, including actions concluded to be necessary.
                                      Interim decisions and actions are not considered final management
                                      decisions for the purpose of the tables in this report.

Final Action                          The completion of all management actions that are described in a
                                      management decision with respect to audit findings and
                                      recommendations. If management concluded that no actions were
                                      necessary, final action occurs when a management decision is
                                      issued.
       THE OFFICE OF INSPECTOR GENERAL

      APPALACHIAN REGIONAL COMMISSION

                serves American taxpayers

     by investigating reports of waste, fraud, or abuse

                 involving Federal funds.


                If you believe an activity is

     wasteful, fraudulent, or abusive of Federal funds,

                        please call

                  toll free 1-800-532-4611

  or (202) 884-7667 in the Washington metropolitan area


                        or write to:


                Office of Inspector General

            Appalachian Regional Commission

         1666 Connecticut Avenue, NW, Suite 700

               Washington, DC 20009-1068


        Information can be provided anonymously.

Federal Government employees are protected from reprisal,

and anyone may have his or her identity held in confidence.
Cover photo:
Blue Ridge Parkway National Park
Photo courtesy of the U.S. National Park Service




                                Appalachian Regional Commission

                                   Office of Inspector General
                             1666 Connecticut Avenue, NW, Suite 700
                                  Washington, DC 20009-1068
